IN THE
SUPREME COURT OF THE UNITED STATES
Wael Lasheen

PETITIONER (Your Name)

VS.
Ohio Supreme Court
RESPONDENT(S)
PROOF OF SERVICE
, do swear or declare that on this
Wael Lasheen
I,
date__ 04/15/2021
as required by Supreme Court I have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
For the Respondent:
The Honorable Chief Justice Maureen O'Connor
Ohio Supreme Court
65 S Front St,
Columbus, OH 43215

I declare under penalty of perjury thq,t the foregoing is true and correct.
Executed on n7t

,60^

s
Al1'
A WILLIAM J SWERESS LAW
: \ Notary Public, State of Ohio
f I My Commission Expires
,/
November 29,2025

WILLIAM <” AV-% •

iA*

' Received
2 0 2021

